 OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS




           Report #33
                                          FEDERAL TRADE COMMISSION
                                            WASHINGTON, D.C. 20580
             OFFICE OF
         INSPECTOR GENERAL




          The HonorableDeborahMajoras
          Chainnan
          FederalTradeCommission
          600 PennsylvaniaAvenue,N. W.
          Washington,D.C. 20580

          Dear Chairn1anMajoras:

                  The attached report covers the Office of Inspector General's (OIG) activities for the
           second half of fiscal year 2005 and is submitted according to Section 5 of the Inspector General
           Act of 1978, as amended.

                   During the six-month reporting period ending September30,2005, the OIG reviewed
          vulnerabilities associatedwith FTC website linkages to external sites, performed an inspection of
          select aspectsof the FTC's Travel and PurchaseCards managementprogram, reviewed agency
          implementation of the Federal Information Security Management Act (FISMA) including agency
          activities to addressvulnerabilities identified in prior year information technology reviews and
          closed an audit survey of the Do Not Call Registry. In addition, the OIG issued a management
          advisory regarding possible fraud in connection with an IT contract for risk managementand
          redundancy assessmentsof the FTC technology infrastructure. The OIG also began fieldwork on
          audits of the FTC's FY 2005 financial statementsand FTC's implementation of the Government
          Performance and Results Act.

                   In addition, the OIG processed382 consumerinquiries and complaints/allegations of
           possible wrongdoing dUring the period, opened two new investigations into wrongdoing, and
           closed two investigations. The results of these closed investigations were reported to
           managementfor ultimate disposition.

                  As in the past, managementhas been responsive in attempting to implement all DIG
           recommendations. I appreciatemanagement'ssupport and I look forward to working with you in
           our ongoing efforts to promote economy and efficiency in agencyprograms.



                                                        Sincerel~                /
                                                            1 /
                                                                            I        j
                                                                   ,1//    ,1
                                                                  '/ /- / ~-.Sribnick --
                                                      );;,v
                                                       Howardl
                                                        InspectorGeneral




1//(_-
                                     TABLE OF CONTENTS


TRANSMITTAL

INTRODUCTION                                                              1

AUDIT ACTIVITIES                                                          I

  Completed Audits                                         --             J
  Summary of Findingsfor ReviewsIssuedDuring the Cu"ent Period            2
  Audits in Which Field Work is In Progress                               4

  PlannedAudits                           -                               5

INVESTIGATIVE ACTIVITIES                                                  6

                                                                          6
                                                                          .,



OTHERACTIVITIES                                                           8

  Significant ManagementDecisions
  Accessto Information                                                    8

  Audit Resolution                                                        8

  Review ofLegislation                                                     8

  Contactingthe Office ofInspector General                                 9

TABLE I: SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS              10

TABLE II: INSPECTOR GENERAL ISSUEDREPORTS WITH QUESTIONED COSTS           11

TABLE III: INSPECTOR GENERAL ISSUEDREPORTS WITH RECOMMENDATIONS THAT FUNDS
BE PUT TO BETTER USE                                                      12
                                       INTRODUCTION

        The Federal Trade Commission (FTC) seeksto assurethat the nation's markets are
competitive, efficient and free from undue restrictions. The FTC also seeksto improve the
operation of the marketplace by ending unfair and deceptive practices, with emphasis on those
practices that might unreasonablyrestrict or inhibit the free exercise of informed choice by
consumers. The FTC relies on economic analysis to support its law enforcement efforts and to
contribute to the economic policy deliberations of Congress,the Executive Branch and the
public.

        To aid the FTC in accomplishingits consumerprotectionand antitrustmissions,the
Office of InspectorGeneral(DIG) wasprovidedfive work yearsanda budgetof $905,700for
fiscal year2005.

                                     AUDIT ACTIVITIES

        During this semiannualperiod, the DIG reviewed vulnerabilities associatedwith FTC
website linkages to external web sites, performed an inspection on select aspectsof the FTC's
Travel and PurchaseCards managementprogram, reviewed agency implementation of the
Federal Information Security ManagementAct, including agency activities to address
vulnerabilities identified in prior year information technology reviews and closed an audit survey
of the Do Not Call Registry. The DIG also issued a managementadvisory regarding possible
fraud in connection with an IT contract for risk managementand redundancy assessmentsof the
FTC technology infrastructure. In addition, the DIG began fieldwork on audits of the FTC's FY
FY 2005 financial statementsand its implementation of the Government Performance and
Results Act. Detailed information regarding these audits and reviews is provided below.

                                       CompletedAudits

Audit Report Number             Subject of Audit

AR 05-064                       Reviewof FTC Web PageLinks

AR 05-065                       Reviewof FTC Purchaseand Travel Card Active Account
                                Lists

AR 05-066                       Reviewof Federal Information Security ManagementAct
                                Corrective Actions for July 1,2004to March 31, 2005

AR 05-067                       OIG Audit Survey of the Do Not Call Registry Scrubbing
                                Process

AR 05-068                        Reviewof FTC Implementation of the Federal Information
                                 Security ManagementAct for FY 2005




                                                 1-
            Summary of Findin!!s for Reviews Issued Durin!! the Current Period

        In AR 05-064,Review ofFTC WebPageLinks,the GIG identifiedpotentialtechnical
(IT) vulnerabilitiesthat could impactconsumersvisiting the FTC webpageand linking to other
(non-FTC)sitesfrom the webpage. The GIG alsohighlightedthe needto developa linking
policy, i.e., a noticeto consumersthat theyareleavingthe FTC's domainwhenclicking on select
links.

        Due to the sensitivenatureof the informationcontainedin our report.we havelimited its
distribution.

       In AR 05-065,ReviewofFTC Purchaseand TravelCard ActiveAccountLists,the OIG
assessed agencypolicies andproceduresto cancelthe accountsof formeremployees.Active
accounts,regardlessof whetheremployeesare in possessionof cards,area vulnerability that
could allow creditcardfraud to occur.

         The OIG found that all purchasecards for employees separating in fiscal year 2004 and
the first four months ofFY 2005 were cancelled. On the other hand, the OIG identified 13
former employees who still had active travel accounts. The former employees left the agency
between November, 2003 and January, 2005. The OIG determined that none of the accounts had
any activity during the period of employee separation. The OIG provided the names to
managementto cancel the accounts.

       The OIG concludedthat controlsto canceltravel cardaccountsneedto be strengthened
As the namesof separatingemployeeswere knownto the programmanager,it appearsthatthe
creditcard vendorwas simply not notified timely by this employee.

        In AR 05-066, Review of Federal Information Security ManagementAct Corrective
Actions for July 1,2004 to March 31,2005, the DIG evaluated Infonnation & Technology
Management's (ITM) progress in correcting weaknessesidentified in previous Government
Infonnation Security Refonn Act, Federal Infonnation Security Management Act and agency-
sponsored security reviews.

       During the period of review, ITM identified 127 weaknesses. During the sameperiod,
ITM closed 36 weaknessesfrom this and prior periods. The OIG reviewed these closed items
and the actions taken by ITM to close them. The OIG concurred with ITM's disposition of these
36 items based on information provided by ITM and independentverifications by OIG's IT
auditors when applicable.

       The OIG and ITM continued to work together to review completed corrective actions on
a quarterly basis to confirm that remedial actions addressedthe identified vulnerabilities.

       In AR 05-067, Audit Survey of the Do Not Call Registry Scrubbing Process, the objective
was to detemline whether registered phone numbers were being improperly removed (scrubbed)
from the registry. To complete this objective, the DIG (i) reviewed criteria used by the agency's

                                                2-
contractor to scrub the registry, (ii) defined the role played by local phone companies in the
scrubbing process, (iii) documentedthe criteria for removing phone numbers from the registry,
and (iv) determined whether the removals were made for reasonsconsistent with contractual
agreementsand program objectives.

       The OIG reviewedthe control environmentrelatedto the Registryto documentany
weaknesses   or potentialweaknesses
                                  in the scrubbingprocessthatwould resultin consumer
phonenumbersbeingscrubbedfrom the Registrywithout the consumer'sknowledgeor consent
(e.g.,an erroneousscrub).

        The DIG found that a formal andrepetitive(monthly)processexiststo reviewthe
Registryto identify the phonenumberswhich shouldbe scrubbed.This processappearsto be
functioningasdescribedby all partiesinvolved,althoughthe formal processis not documented
to a level that would be consideredacceptablein the contextof an audit. The total numbers
"scrubbed"sincethe inceptionof the Registryis lessthantwo percentof the total numbers
registered. Given thatthereare manyreasonsto scruba numberfrom the registry(peoplemove,
for example)and thatthe scrubbingprocessappearsto targetthesenumbers,we concludedthat a
systemicproblem(causingnumbersto be erroneouslydeletedfrom the Registry)doesnot exist.

        In AR 05-068, Review ofFTC Implementation of the Federal Information Security
Management Act for FY 2005, the OIG evaluatedthe implementation of the FTC information
security program, assessedagencyprogresstowards correcting weaknessesaddressedwithin the
FY 2005 Plan of Action and Milestones (POA&M), verified and tested information security and
accesscontrols for the FTC Network and modem pool, verified staff compliance with the
agency's wireless network policy, and evaluated the implementation of IT security policies and
procedures at one FTC regional office. The review followed National Institute of Science and
Technology guidance for information systems, OMB Memorandum M-05-15, FY2005 Reporting
Instructions for the Federal Information Security ManagementAct (June 13, 2005) and best
practices used in the IT security industry.

         The OIG found that the FTC continues to make progress in developing a mature
information security program, and has addressedmany of the GIG-identified security
vulnerabilities discussed in the prior year evaluation. For example, the FTC (i) tested its Major
Applications and General Support Systems for security vulnerabilities; (ii) addressed51 of 111
issues identified on its POA&M and developed time frames to addressthe remaining 60 issues;
(iii) established new policies and proceduresto keep abreastof emerging security vulnerabilities;
(iv) implemented a scanning and remediation program for identifying and correcting system
vulnerabilities; and (v) modified IT inventory to include interconnections to other systems.

        The FTC has also taken stepsto ensure privacy in accordancewith M-99-05, Instructions
for Complying with the President's Memorandum of May 14, 1998, "Privacy and Personal
 Information in Federal Records. " The FTC establisheda Privacy Steering Committee to address
and monitor security issues.The FTC posted its privacy policy on its website and runs scansto
identify and correct privacy-related vulnerabilities associatedwith its website. The FTC has also


                                               -3 -
takenstepsto ensurethe securityand privacyof datalocatedon contractor-ownedand/or
managedsystems.

        The agency's firewall prevented the GIG's team of "ethical hackers" from penetrating the
network, and the OIG, using sophisticated electronic tracking and detection instruments, did not
identify any wireless networks at the headquartersor 601 NJ buildings. At the FTC's Southwest
Regional Office the OIG observedphysical and operational controls in place to safeguarddata.

        While the agencyhasmademanyneededchangesandimprovementsin its IT security
program,the OIG hasidentified somenewvulnerabilitiesthatcould impactthe overall
effectivenessof the IT securityprogram. The OIG identifieda vulnerability in the agency's
modempool that enabledthe OIG to breachthe modem'ssecuritycontrols. This breachcould
enablea hackerto executeattackson the FTC network. Additionaldetailswereprovidedto ITM
managers,who took immediatestepsto correctthe vulnerability. This and othertechnical
vulnerabilitiesthat could compromiseFTC IT securitywereprovidedto ITM in a separate
(nonpublic)OIG report.

        The OIG also identified weaknessesin the agency's background check process for IT
employees. Approximately 30 percent ofITM full-time staff had outdated or no background
investigation. Half of these individuals have significant data accessand/or security
responsibilities. We also identified a weaknessesin the assignmentof "roles" to ITM personnel
working with the agency's personnel database. This allowed liberal accessto privacy data even
though such accesswas not needed for job performance responsibilities.

         Finally, at management's request,the OIG reviewed the performance of an IT contractor.
The requesterwas concerned that the contractor may have engagedin fraudulent activity in its
performance and billing under the contract. The OIG did not fmd any indication of fraud but did
find that there had been mismanagementon the part of ITM arising from ITM's commitment in
the contract to provide information to the contractor neededto complete performance and its
inability to do so.

                          Audits in Which Field Work is In Proe:ress

Audit Report Number

ARO6-069                        Audit of the FTC's Financial Statements for Fiscal Year
                                2005 The purpose of the audit is to expressan opinion on the
                                financial statementsof the Federal Trade Commission for the
                                fiscal year ending September30, 2005. The principal statements
                                to be audited include the (a) Balance Sheet; (b) Statementof Net
                                Cost; (c) Statementof Changesin Net Position; (d) Statementof
                                Budgetary Resources;(e) Statementof Financing; (t) Statement
                                of Custodial Activity, and notes to the financial statements.The
                                DIG will also test the internal controls associatedwith the
                                movement of transactionsthrough the FTC's financial system
                                and assesscompliance with selectedlaws and regulations.
                                              -4. -
                      The OIG is usingguidancecontainedin OMB Bulletin No. 01-
                      02, Audit Requirementsfor FederalFinancial Statements,   in
                      perfonningthis audit.The auditedfinancial statementsare
                      requiredto be includedin the financial sectionof the agency's
                      Perfonnanceand AccountabilityReportto be issuedon or before
                      November15,2005.

ARO5-
    xxx               Review of Annual Performance Measures Under the
                      Government Performance and Results Act Under the
                      Government Perfonnance and Results Act of 1993 ("GPRA "),
                      virtually every federal agency is required to develop a five-year
                      strategic plan, an annual perfonnance plan and perfonnance
                      measuresto assesshow well the agency is meeting its
                      perfonnance objectives. Like many other agencies,the FTC
                      strives to capture all of the activities that FTC staff perfonn to
                      achieve the agency'smission.

                      The overall objective of the review is to ensure that the agency
                      has, usesand reports on performance data that is compliant with
                      laws and regulations and effectively aligns to the agency's vision
                      and performance budget. The OIG will (i) ensure that current
                      performance activity effectively complies with GPRA and OMB
                      requirements; (ii) determine the value and relationship of current
                      performance information to the agency's mission; (iii) document
                      best practices used by other agenciesand their effectiveness; (iv)
                      validate that the performance data currently reported by FTC
                      properly focuses on the priorities of the agency and its senior
                      executives and managers; (v) determine that the appropriate
                      performance reporting mix of output, outcome and efficiency
                      measuresis used to report FTC performance; and (vi) evaluate
                      the "feedback" loop in place and the extent to which program
                      management/operationsare modified to enhanceperformance.

                               Planned Audits

Audit Report Number   Subject of Review

ARO6-
   xxx                 Audit of RedressAdministration Proceduresat Analytics,
                      Inc. Redressis the termappliedto situationsin which monetary
                      judgmentsareawardedagainsta sellerof goodsor services
                       foundto havecommittedunfair or deceptivetradepractices.
                       The amountsassessed  andcollectedaredistributedto consumers
                       foundto havesufferedharm.Redressdistributionsare almost
                       alwaysmadeby claims administrationagentsundercontractto
                       theFTC. The OIG hasselectedoneredresscontractorto audit.
                                      -5 -
                                This contractor, Analytics, Inc., located in Chanhassen,MN,
                                distributed $36.2 million in FY 2005 to consumers,and, as of
                                9/30/05, held $38.5 million in redressfunds in bank accounts.

                                The objectivesof this financial-relatedauditareto documentand
                                assessinternalcontrolsthatare in placeto ensure(i) efficient
                                andeffectivefundsmanagement,(ii) safeguardingof fund assets,
                                (iii) accuratereportingof redressactivity results,and (iv)
                                compliancewith contractregulations.

                                INVESTIGATIVE ACTIVITIES

        The Inspector General is authorized by the IG Act to receive and investigate allegations
of fraud, waste and abuseoccurring within FTC programs and operations. Matters of possible
wrongdoing are referred to the GIG in the foml of allegations or complaints from a variety of
sources, including FTC employees, other government agenciesand the general public.

         Reported incidents of possible fraud, waste and abusecan give rise to administrative,
civil or criminal investigations. OIG investigations are also initiated when there is an indication
that firms or individuals are involved in activities intended to improperly affect the outcome of
particular agency enforcement actions. Becausethis kind of wrongdoing strikes at the integrity
of the FTC's consumer protection and antitrust law enforcementmissions, the OIG places a high
priority on these investigations.

       In conductingcriminal investigationsduringthe pastseveralyears,the OIG has sought
assistancefrom, andworkedjointly with, otherlaw enforcementagencies,including other
OIG's, the FederalBureauof Investigation,the U.S. PostalInspectionService,the U.S. Secret
Service,the U.S. Marshal'sService,the InternalRevenueService,CapitolHill Police,Federal
ProtectiveServiceaswell asstateagenciesandlocal police departments.

                                     Investieative Summary

       During this reportingperiod,the OIG received382 consumerinquiriesand of possible
wrongdoing. This numberreflectsa nearlytwo hundredpercentincreaseoverthe numberof
complaintsreceivedduring the lastsemiannualreportingperiod.) Of the 382 complaints,325
involved issuesthat fall underthe jurisdiction of FTC programcomponents(identity theft, credit
repair,etc.). Consequently,the OIG referredthesemattersto the appropriateFTC componentfor
disposition. Another24 complaintswerereferredto othergovernmentand/orlaw enforcement
agenciesfor ultimate disposition.
        1 The FTC is an independent agency with consumer protection law enforcement
authority. Becausethe 010 contact information is prominent on the Agency's web site,
consumers frequently misdirect their consumer protection complaints to the 010, with the belief
that the 010 has authority to investigate consumerfraud. The dramatic increase in the number of
complaints received most likely stems from the addition of the 010 contact information to the
010 web site.
                                                -6-
        Of the remaining 33 complaints, OIG closed 32 without any action and one resulted in an
investigation that remained ongoing at the end of this reporting period. The OIG opened another
investigation as a result of an OIG audit undertaken during this semiannualreporting period.

      Following is a summaryof the DIG's investigativeactivities for the six-monthperiod
ending September30,2005:




                                    Investie:ations Closed

       The OIG closedan investigation,openedin the prior reportingperiod,regarding
allegationsthat an employeehadvisitedpornographicwebsitesanddownloadedpornographic
imagesonto his FTC Governmentcomputer,in violation of agencypolicy. Becausesomeof the
websitesaccessedby the employee(andsomeof the websitesto which accesswas blocked)
might containimagesof minors,management    referredthe matterto the GIG. Management
seizedthe employee'scomputerharddrive atthe requestof the OIG andtransmittedthe secured
hard drive for OIG review. Using computerforensicsanalyticaltools,the OIG reviewedthe
computerhard drive. The evidencedid not supporta referralto the Departmentof Justicefor
prosecution.We informed management   of our investigativefindingsandclosedthe matter.

         Another investigationthatthe OIG bothopenedandclosedduringthis reportingperiod
originatedfrom an OIG audit. The OIG auditfocusedon the useof the Governmentissued
travel credit card by employeeswithin a specifiedagencyorganization.The auditdisclosedthat
an employeein this organizationhadmisusedherGovernment-issued     travel creditcard by
obtaining cashadvancesfor personaluse(unrelatedto official Governmenttravel). Creditcard
recordsindicatedthat the employeehadpaid the outstandingbalancesandrelatedservicefeesin
full (althoughsuchpaymentswere typically delinquent).The OIG referredits investigative
findings to managementfor furtheradministrativeaction.

                              Matters Referred for Prosecution

        During this reporting period the OIG referred one caseto the Department of Justice for
prosecution and throughout this reporting period, we have continued to assistthe federal
prosecutor in this ongoing prosecution. The OIG closed this investigation during the preceding
reporting period.



                                              -7-
                                     OTHER ACTIVITIES

                               Si2nificant Mana2ement Decisions

        Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees with any
significant managementdecision, such disagreementmust be reported in the semiannualreport.
Further, Section 5(a)(II) of the Act requires that any decision by managementto change its
responseto a significant resolved audit finding must also be disclosed in the semiannualreport.
For this reporting period there were no significant final managementdecisions made on which
the IG disagreed and managementdid not revise any earlier decision on an OIG audit
recommendation.

                                     Accessto Information

        The IG is to be provided with ready accessto all agencyrecords, infomlation, or
assistancewhen conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the
IG to report to the agency head, without delay, if the IG believes that accessto required
infomlation, records or assistancehas been unreasonablyrefused, or otherwise has not been
provided. A summary of each report submitted to the agencyhead in compliance with Section
6(b)(2) must be provided in the semiannualreport in accordancewith Section 5(a)(5) of the Act.

       During this reporting period, the OIG did not encounter any problems in obtaining
assistanceor accessto agency records. Consequently, no report was issued by the IG to the
agency head in accordancewith Section 6(b)(2) of the IG Act.

                                        Audit Resolution

        As of the end of this reporting period, all OIG audit recommendations for reports issued
in prior periods have been resolved. That is, managementand the OIG have reached agreement
on what actions need to be taken.

                                      Reviewof Lee:islation

         Section 4(a)(2) of the IG Act authorizes the IG to review and comment on proposed
legislation or regulations relating to the agencyor, upon request,affecting the operations of the
GIG. During this reporting period, the GIG reviewed no legislation.




                                                -8
                         Contactine the Office of InsDector General

        Employees and the public are encouragedto contact the DIG regarding any incidents of
possible fraud, waste, or abuseoccurring within FTC programs and operations. The DIG
telephone number is (202) 326-2800. To report suspectedwrongdoing, employees may also call
the DIG's investigator directly on (202) 326-2618. A confidential or anonymous messagecan be
left 24 hours a day. Complaints or allegations of fraud, waste or abusecan also be emailed
directly to chogye@ftc.gov. OIG mail should be addressedto:

                                    FederalTradeCommission
                                    Office of InspectorGeneral
                                    RoomNJ-III0
                                    600 PennsylvaniaAvenue,NW
                                    Washington,D.C. 20580

        OIG reports can be obtained directly from the internet at: www.ftc.gov/oig. A visitor to
the OIG home page can download recent (1996-2005) OIG semiannual reports to Congress,the
FY 1998 -2004 financial statementaudits, and other program and performance audits issued
beginning in FY 1999. A list of audit reports issued prior to FY 1999 can also be ordered via an
e-mail link to the OIG. In addition to this information resource about the mG, visitors are also
provided a link to other federal organizations and Office of Inspectors General.




                                               -9-
 TABLE I: SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS



   IG Act                                Reoortine ReQuirement                       Pae:e(s)
  Reference

Section4(a)(2)    Reviewof legislationandregulations                                   9

Section5(a)(I)    Significantproblems,abusesanddeficiencies                            2-4

Section5(a)(2)    Recommendationswith respectto significant problems, abusesand
                  deficiencies                                                         2-4

Section 5(a)(3)   Prior significantrecommendations
                                                 on which correctiveactionshavenot
                  beenmade                                                             9

Section5(a)(4)    Mattersreferredto prosecutiveauthorities                              8

Section5(a)(5)    Summaryof instanceswhereinfonnationwasrefused                         8

Section5(a)(6)    List of audit reports by subject matter, showing dollar value of
                  questioned costs and funds put to better use                       11, 12

Section5(a)(7)    Summaryof eachparticularlysignificantreport                          2-4

Section5(a)(8)    Statisticaltablesshowingnumberof reportsanddollar valueof
                  questionedcosts                                                      11

Section5(a)(9)    Statisticaltablesshowingnumberof reportsand dollar valueof
                  recommendations   that fundsbe put to betteruse                      12

Section5(a)(lO) Summaryof eachauditissuedbeforethis reportingperiod for which no      11, 12
                managementdecisionwasmadeby the endof the reportingperiod

Section5(a)(11) Significantrevisedmanagement
                                          decisions                                     8

Section5(a)(12) Significantmanagement
                                   decisionswith whichthe inspectorgeneral
                disagrees                                                               8




                                              -10-
         TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS




                                                                               Dollar Value


                                                                       Questioned Unsupported
                                                              Number     Costs       Cost

     A     For which no managementdecision has beenmade by
           the commencementof the reporting period              0          0           (      0   )




     B     Which were issuedduringthe reportingperiod



           Subtotals (A + B)                                    0          0           (      0   )
     c     For which a management
                                decisionwasmadeduring
           the reportingperiod                                  0          0            (     0   )


           (i) dollar value of disallowed costs                 0          0            (0        )


           (ii) dollar value of cost not disallowed             0          0            (     0   )

           For which no management    decisionwasmadeby the
           end of the reportingperiod                           0          0            (     0   )

           Reportsfor which no management
                                        decisionwasmade
           within six monthsof issuance                         0          0            (     0   )




                                                      -11 -




D.
               TABLE III: INSPECTOR GENERAL ISSUED REPORTS WITH
              RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE




                                                                       Number   Dollar Valoe

A    For which no management  decisionhasbeenmadeby the
     commencement  of the reportingperiod                                0           0

B. Which were issuedduring this reportingperiod                          0           0

Co   For which a managementdecision was made during the reporting
     period                                                              0           0

     (i) dollar value of recommendations that were agreed to by
     management                                                          0           0

     -based on proposed management action                                0           0

      based on proposedlegislative action                                0           0

     (ii) dollar value of recommendations that were not agreed to by     0           0
     management

D. For which no managementdecisionhasbeenmadeby the endof
     the reportingperiod                                                 0           0

     Reportsfor which no management
                                  decisionwasmadewithin six
     monthsof issuance                                                   0           0




                                             12-
